Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 Trends in Urban Hospital Closure
            1990-2000




                   JANET REHNQUIST
                       Inspector General
                         May 2003
                      OEI 04-02-00611
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended
by Public Law 100-504, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by the following operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspection reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                          EXECUTIVE                       SUMMARY

OBJECTIVE

          To summarize the extent, characteristics, reasons for, and impact of urban hospital closures
          from calendar years 1990 through 2000.


BACKGROUND

          Hospital closures have generated concern among the health care industry, government leaders,
          and the general public. Of particular interest were the reasons for and impact of the closures.

          In May 1989, the Office of Inspector General (OIG) released a report describing the
          phenomenon of urban and rural hospital closures within the United States during calendar year
          1987. Many users of that information encouraged us to continue a yearly analysis to determine
          the rate of closure as well as trends in the characteristics and circumstances of hospitals that
          closed. Consequently, we conducted similar annual inspections documenting hospitals that
          closed through calendar year 2000.

          In 1995, the OIG released a report describing trends associated with urban hospitals that
          closed from 1987 through 1993. Our current inspection broadens that information and focuses
          on the extent and characteristics, as well as the reasons for and effects of urban hospitals that
          closed during 1990 through 2000. We are issuing a separate report documenting the unique
          circumstances that led to rural hospital closures, “Trends in Rural Hospital Closure: 1990-
          2000" (OEI-04-02-00610).

          To determine the extent, characteristics, reasons for, and impact of urban hospital closures
          during calendar years 1990 through 2000, we reviewed and expanded upon the information
          previously documented in our annual hospital closure reports. For those reports, we compiled
          hospital data from two Centers for Medicare & Medicaid Services (CMS) databases: the
          Hospital Cost Report Information System (HCRIS) and Provider of Service (POS) file.
          Additionally, we interviewed officials associated with each of the closed hospitals as well as
          representatives from state hospital and licensing agencies.




Trends in Urban Hospital Closure: 1990-2000           i                                        OEI-04-02-00611
FINDINGS

          Our review of urban hospitals that closed from 1990 through 2000 revealed the following:

          296 urban hospitals closed -- 10.6 percent of all urban hospitals nationally at the
          beginning of the trend period.

          •         The average annual rate of closure was 1 percent.

          •	        Urban bed supply was reduced by 4.8 percent (33,253 of the 686,035 urban beds
                    nationally at the beginning of the trend period).

          Generally, urban hospitals that closed were smaller and treated fewer patients than
          urban hospitals nationally.

          •	        Urban hospitals that closed averaged fewer beds, lower occupancy rates, and lower
                    annual net income than urban hospitals nationally. Medicare and Medicaid utilization
                    rates, however, were slightly higher among hospitals that closed.

                    <          Size: 112.3 beds compared to 240.5 beds nationally
                    <          Occupancy: 35.9 percent compared to 53.4 percent nationally
                    <          Net income: ($3,221,172) compared to $3,929,219 nationally
                    <          Medicare utilization: 46.4 percent compared to 45.9 percent nationally
                    <          Medicaid utilization: 14.6 percent compared to 13.5 percent nationally

          •	        Urban hospitals that closed were used by about one-third as many patients as urban
                    hospitals nationally. Specifically, their average daily census was:

                    <          Total patients: 40 patients, compared to 128 patients nationally
                    <          Medicare patients: 19 patients, compared to 59 patients nationally
                    <          Medicaid patients: 6 patients, compared to 17 patients nationally

          Officials associated with most urban hospitals that closed reported the reasons to be
          competition, business-related decisions, or a low number of patients.

          •	        From 1998 through 2000, 113 urban hospitals closed. Officials associated with those
                    hospitals cited multiple reasons for closure; however, the primary reasons were as
                    follows:



Trends in Urban Hospital Closure: 1990-2000               ii                                        OEI-04-02-00611
                    <	         Competition: Thirty-one (27.4 percent) reported that closure was due to
                               competition with other nearby hospitals.
                    <          Business decisions: Thirty (26.6 percent) reported that the reason for closure
                               was based on relocation, consolidation, or merger.
                    <          Number of patients: Sixteen (14.2 percent) attributed closure to low
                               occupancy/low census.
                    <	         Medicare and Medicaid reimbursements: Twelve (10.6 percent) reported
                               insufficient Medicare and/or Medicaid reimbursements as reasons for closure;
                               however, officials with 11 of those facilities stated that other factors, such as
                               competition and low occupancy, also contributed.
                    <          Other reasons: Twelve (10.6 percent) reported various other reasons, such as
                               mismanagement or an outdated facility.
                    <          Not Specified: Twelve (10.6 percent) did not report a primary reason for
                               closure.

          •	        During 1990-1997, we reported on the reasons for hospital closure in four of our
                    annual reports (1990, 1993, 1996, and 1997); however, that information did not
                    differentiate between urban and rural closures. During those years, hospitals (urban
                    and rural combined) generally closed because of low occupancy, lagging revenues,
                    rising costs, or a combination of those factors.

          Hospital services were still available within 10 miles from most of the urban hospitals
          that closed.

          •	        Most urban residents could receive inpatient and emergency services within 10 miles of
                    the closed hospital.

                    <	         Inpatient care: In 268 of the 296 (90.5 percent) urban communities where a
                               hospital closed, inpatient care was available within 10 miles from the closed
                               facility. Furthermore, residents in 290 (98.0 percent) of those communities
                               could get inpatient care within 20 miles from the closed facility.
                    <	         Emergency care: In 274 of the 296 (92.6 percent) urban communities where a
                               hospital closed, emergency care was available within 10 miles of the closed
                               facility. Residents in 293 (99.0 percent) of those communities could get
                               emergency care within 20 miles from the closed facility.

          •	        During 1998-2000, 37 urban hospitals either opened or reopened, reducing the
                    national impact of the 113 urban hospitals that closed during those 3 years.
                    Additionally, 64 hospitals (urban and rural) opened or reopened from 1990 through
                    1997. Prior to 1998, however, we did not identify such data specific to rural or urban
                    classifications. Therefore, we cannot identify how many of the 64 openings were in
                    urban communities.

Trends in Urban Hospital Closure: 1990-2000                iii                                       OEI-04-02-00611
                          TABLE                        OF              CONTENTS

                                                                                                                     PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


FINDINGS

          Extent and Characteristics of Urban Hospitals That Closed . . . . . . . . . . . . . . . . . . . . . . . . . 5


                    Number of urban hospitals that closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


                    Characteristics of urban hospitals that closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Reasons for Urban Hospital Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Impact of Urban Hospital Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


                    Distance to inpatient and emergency care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


                    Impact of hospital openings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13




APPENDICES

          A: Urban Hospital Closures by State . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          B: Medicare and Medicaid Utilization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18





Trends in Urban Hospital Closure: 1990-2000                        1                                                    OEI-04-02-00611
                                       INTRODUCTION

OBJECTIVE

          To summarize the extent, characteristics, reasons for, and impact of urban hospital closures
          from calendar years 1990 through 2000.


BACKGROUND

          Hospital closures have generated concern among the health care industry, government leaders,
          and the general public. Of particular interest were the reasons for and impact of the closures.

          In May 1989, the Office of Inspector General (OIG) released a report describing the
          phenomenon of urban and rural hospital closures within the United States during calendar year
          1987. Many users of that information encouraged us to continue a yearly analysis to determine
          the rate of closure as well as trends in the characteristics and circumstances of hospitals that
          closed. Consequently, we conducted similar annual inspections documenting hospitals that
          closed through calendar year 2000.

          In 1995, the OIG released a report that addressed trends associated with urban hospitals that
          closed during 1987-1993, “Trends in Urban Hospital Closure: 1987-1993" (OEI-04-95-
          00050). Our current inspection broadens that information and reports on the issue of urban
          hospital closures during 1990-2000. We are issuing a separate report documenting the unique
          circumstances that led to rural hospital closures, “Trends in Rural Hospital Closure: 1990-
          2000" (OEI-04-02-00610).


METHODOLOGY

          To determine the extent, characteristics, reasons for, and impact of urban hospital closures
          during 1990-2000, we reviewed and expanded upon the information previously documented in
          our annual hospital closure reports. For those reports, we compiled hospital data from two
          Centers for Medicare & Medicaid Services (CMS) databases: the Hospital Cost Report
          Information System (HCRIS) and Provider of Service (POS) file. For each hospital that
          closed, we obtained cost report data accounting for the most recent full fiscal year prior to
          closure. Additionally, we interviewed officials associated with each of the closed hospitals as
          well as representatives from state hospital and licensing agencies.




Trends in Urban Hospital Closure: 1990-2000          2                                         OEI-04-02-00611
          We compiled data for hospitals that closed during the entire 11-year trend period -- including
          average number of beds, average occupancy, Medicare and Medicaid utilization, and the
          average number of patients affected -- by calculating weighted averages using the data we
          collected from our previous hospital closure reports. Due to rounding, some minor variation
          may exist between the data in this report when compared to the data in our annual hospital
          closure reports. Additionally, we compiled net income data directly from HCRIS.

          To supplement the data, we contacted state licensing and certification agencies, state hospital
          associations, and state health planning agencies. Further, we surveyed various officials that
          were directly or indirectly associated with each hospital. Such officials included:

          <         Former hospital executives and physicians of the closed urban facilities,

          <         Executives from nearby hospitals,

          <         Local health and government officials, and

          <         Officials associated with parent corporations of closed hospitals.

          We determined the distance from closed urban hospitals to the closest operating hospitals and
          emergency services using maps and mapping programs (e.g., Mapquest) in addition to the
          information provided by the various officials we interviewed.

          We used data sets previously developed for our annual hospital closure reports to quantify
          urban hospitals that opened from 1998 through 2000. Prior to 1998, we did not identify such
          data specific to rural or urban classifications. The reported data was an aggregated total of
          openings and reopenings.

          We used the following definitions as we examined urban hospitals that closed during calendar
          years 1990 through 2000:

          Urban Hospital:	               A facility located in an urban area that provided general,
                                         short-term, acute medical and surgical inpatient services.

          Closed Hospital:	              A facility that stopped providing general, short-term, acute inpatient
                                         care during 1990-2000. We did not consider a hospital closed if it:

                                         <	      Merged with, or was sold to, another hospital but the physical
                                                 plant continued to provide inpatient acute care, or




Trends in Urban Hospital Closure: 1990-2000                 3                                         OEI-04-02-00611
                                         <	    Both closed and reopened during the same calendar year and
                                               at the same physical location.



          We conducted our inspection between July 2002 and December 2002. We conducted this
          inspection in accordance with the Quality Standards for Inspections issued by the President’s
          Council on Integrity and Efficiency.




Trends in Urban Hospital Closure: 1990-2000
             4                                      OEI-04-02-00611
                                              FINDINGS

          For more than a decade, the closure of urban hospitals has generated considerable public
          interest. This issue also generated concern among the health care industry and Congress.
          Specific areas of interest included the extent, characteristics, reasons for, and impact of hospital
          closures. Our national review of urban hospital closures that occurred from 1990 through 2000
          revealed that:

          <         Two hundred ninety-six hospitals closed -- 10.6 percent of all urban hospitals.

          <	        Urban hospitals that closed were generally smaller and treated fewer patients than
                    urban hospitals nationally.

          <	        Generally, urban hospital closures resulted from competition, business related decisions,
                    or a low number of patients.

          <	        Hospital services were still available within 10 miles from most of the urban hospitals
                    that closed.


Extent and Characteristics of Urban Hospitals That Closed

Number of urban hospitals that closed

          During 1990-2000, 296 urban hospitals closed. At the beginning of the trend period, 5,466
          general, short-term, acute care hospitals were included nationally in CMS’ HCRIS database.
          Of those, 2,799 (51.2 percent) were classified as urban hospitals.

               Urban Hospitals in the U.S. in 1990                             2,799
               Urban Hospitals that Closed from 1990 through 2000         296 (10.6%)



          The average annual rate of closure was 1.0 percent. The most closures for any given year
          occurred in 1999, when 43 urban hospitals closed. The lowest number occurred in 1994,
          when 11 urban hospitals closed. See Appendix A for state specific data. Figure 1 illustrates
          the annual rate of closure.




Trends in Urban Hospital Closure: 1990-2000             5                                         OEI-04-02-00611
          During the 11-year period, hospital closures reduced the inpatient bed supply in urban areas by
          4.8 percent (33,253 of the 686,035 urban beds operating nationally at the beginning of the
          trend period).

Characteristics of urban hospitals that closed

          Size : On average, urban hospitals that closed were considerably smaller than those that
          remained opened. During 1990-2000, the closed hospitals averaged 112.3 beds compared to
          an average of 240.5 beds for all urban hospitals nationally. The following figure illustrates an
          annual comparison.




Trends in Urban Hospital Closure: 1990-2000          6                                        OEI-04-02-00611
          Occupancy: During the 11-year trend period, urban hospitals that closed had an average
          occupancy rate of 35.9 percent compared to an average of 53.4 percent for urban hospitals
          nationally.1 Additionally, on an annual basis, occupancy was consistently lower among urban
          hospitals that closed. An annual comparison of average occupancy is illustrated in the following
          figure.




          Net income : An average net loss (the year prior to closure) for urban hospitals that closed
          occurred in each of the 11 years that made up the trend period. In contrast, urban hospitals
          nationally averaged a positive net income each of the 11 years. Overall, the average net loss
          for urban hospitals that closed was $3,221,172 compared to a net income of $3,929,219 for
          urban hospitals nationally. An annual comparison is illustrated in Figure 4.




          We calculated average occupancy by dividing the actual number of patient days by the total bed days available for
          1


urban hospitals nationally (including those that closed). Then we summed the results and divided by the respective numbers of
urban hospitals -- closed and nationally.

Trends in Urban Hospital Closure: 1990-2000                    7                                                OEI-04-02-00611
          Medicare and Medicaid utilization: According to hospital cost report data for 1990 through
          2000, urban hospitals that closed had slightly higher Medicare and Medicaid utilization rates
          than urban hospitals nationally. The average Medicare utilization for urban hospitals that closed
          was 46.4 percent compared to 45.9 percent for urban hospitals nationally. 2

          Similarly, Medicaid utilization for the closed hospitals was 14.6 percent compared to the
          national average of 13.5 percent.3 See Appendix B for annual Medicare and Medicaid
          utilization data. Figure 5 highlights the overall average utilization rates for closed urban hospitals
          and urban hospitals nationally.




          2
           We calculated average Medicare utilization by dividing the Medicare patient days by total patient days for urban
hospitals nationally (including those that closed). Then we summed the results and divided by the respective numbers of urban
hospitals -- closed and nationally.

          3
           Medicaid utilization is calculated the same way as Medicare utilization.

Trends in Urban Hospital Closure: 1990-2000                     8                                               OEI-04-02-00611
          Number of patients affected: Consistent with their small size and low occupancy rates,
          urban hospitals that closed during 1990-2000 had a low daily census in the year prior to
          closure.

          Total patients: Nationally, urban hospitals averaged 128 patients per day in contrast to 40
          patients per day among urban hospitals that closed.


                                       CLOSED URBAN HOSPITALS : PATIENT CENSUS

           Average Number of Beds                                                     112.34

           Average Occupancy Rate                                                    x 35.94%

           Average Number of Patients Daily                                          40.37


          Medicare and Medicaid patients: The average number of urban Medicare patients per day
          was 59 nationally, compared to 19 for the hospitals that closed. Furthermore, the average
          number of Medicaid patients per day was 17 nationally, in contrast to 6 in urban hospitals that
          closed.


                             CLOSED URBAN HOSPITALS : MEDICARE AND MEDICAID CENSUS

                                                                          Medicare              Medicaid

            Average Number of Patients Daily                                40.37                40.37

            Average Medicare and Medicaid Utilization Rate                x 46.39%              x 14.60%

            Average Number of Medicare and Medicaid Patients                18.73                 5.89




Trends in Urban Hospital Closure: 1990-2000                  9                                    OEI-04-02-00611
Reasons For Urban Hospital Closure

          Officials reported various factors that contributed to urban hospital closures. The primary
          reasons, however, were competition with other hospitals or business-related decisions, such as
          relocations, consolidations, or mergers. Additionally, hospitals closed due to other factors,
          including a low number of patients (low occupancy/low census) or lagging revenues.

          During 1990-1997, we reported the reasons for hospital closure in four of our annual reports
          (1990, 1993, 1996, and 1997); however, that information did not differentiate between urban
          and rural closures. During those years, hospitals (urban and rural combined) generally closed
          because of low occupancy, lagging revenues, rising costs, or a combination of these factors.
          From 1998 through 2000, we collected information specific to the reasons for urban hospital
          closure. To determine those reasons, we interviewed senior executives, legal council, or other
          officials associated with the closed hospitals. Though some officials reported more than one
          reason for closure, the following information focuses on what they stated to be the primary
          reasons.

          During 1998-2000, 113 urban hospitals closed. Officials associated with 31 (27.4 percent) of
          those hospitals reported that the primary reason for closure was competition with other nearby
          hospitals. Additionally, 30 (26.6 percent) of the closures were attributed to a business-related
          decision, such as relocation, consolidation, or merger. An insufficient number of patients (low
          occupancy/low census) was reported to be the primary reason for 16 (14.2 percent) of the
          closures.

          Hospital officials associated with 12 (10.6 percent) of the hospitals included Medicare and
          Medicaid reimbursements as the primary reasons for closure. Of those, 11 stated that
          additional reasons, such as competition and an insufficient number of patients, also contributed.
          Only one official reported Medicare and Medicaid as the only reasons for the hospital closing.
          Our analysis of hospital cost report data showed the occupancy rate for that hospital, however,
          was 17.8 percent compared to the national average of 53.4 percent. Additionally, a 644-bed
          hospital was located just over 3 miles away.

          Of the remaining 24 urban hospitals that closed, 12 (10.6 percent) were reported to have
          closed for various other reasons, such as mismanagement or old and damaged buildings.
          Officials associated with the remaining 12 (10.6 percent) hospitals did not report a specific
          reason for closure; however, 10 of those 12 hospitals had average occupancy rates that were
          lower than the national average. Figure 6 provides a comparison of the primary reasons for
          hospital closure.




Trends in Urban Hospital Closure: 1990-2000          10                                        OEI-04-02-00611
Impact of Urban Hospital Closure

Distance to inpatient and emergency care

          Inpatient care : In 268 of the 296 (90.5 percent) urban communities where a hospital closed,
          inpatient care was available within 10 miles from the closed hospital. Furthermore, residents in
          290 (98 percent) of those communities could get inpatient care within 20 miles from the closed
          hospital. For example, after the 1998 closure of a Dallas, Texas hospital, residents still had
          access to inpatient care at three different full-service hospitals that were located within close
          proximity to the closed facility -- the closest being 1 mile.

          Figure 7 shows summary information on the distances closed hospitals were from inpatient care
          that was still available.




Trends in Urban Hospital Closure: 1990-2000          11                                         OEI-04-02-00611
          Emergency services: When a hospital closes, the community potentially loses access to
          emergency services as well as inpatient care. In 274 of the 296 (92.6 percent) urban
          communities where a hospital closed, emergency care was available within 10 miles of the
          closed hospital. Residents in 293 (99.0 percent) of those communities could get emergency
          care within 20 miles from the closed hospital. For example, a hospital in San Francisco,
          California stopped providing inpatient and emergency services in 1999. Residents could still
          receive 24-hour emergency services at a hospital that was located 2 miles from the closed
          facility.

          Figure 8 shows summary information on the distances closed hospitals were from emergency
          care that was still available.




Trends in Urban Hospital Closure: 1990-2000         12                                      OEI-04-02-00611
Impact of hospital openings

          Hospital openings: Many hospitals opened or reopened in urban communities from 1990
          through 2000, reducing the national impact of hospital closure. However, prior to 1998, we
          did not identify such data specific to rural or urban classifications. From 1990 through 1997,
          64 hospitals (urban and rural combined) opened or reopened. Those 64 hospitals are an
          aggregated total of openings and reopenings; therefore, we cannot identify how many of them
          were in urban communities.

          During 1998 through 2000, 37 urban hospitals either opened or reopened, reducing the national
          impact of the 113 urban hospitals that closed during that timeframe. Figure 9 illustrates the net
          number of urban hospital closures for those 3 years.




          As stated earlier in the report, 30 (26.6 percent) of the urban hospitals that closed from 1998
          through 2000 were due to business-related decisions such as relocation, consolidation, or
          merger. Of those closures, six (20 percent) were the direct result of relocation to newer
          buildings. When a hospital changed location, we reported it as a closure because the hospital
          had stopped providing general, short-term, acute care services in the physical plant from which
          it moved. However, for each of the six hospitals that relocated, the closure was offset by an
          opening of hospital services within a new building – less than 6 miles from the old building.
          Therefore, impact on access to care was minimal when a hospital relocated.




Trends in Urban Hospital Closure: 1990-2000          13                                       OEI-04-02-00611
                                                                                  APPENDIX A


                         URBAN HOSPITAL CLOSURES BY STATE


          During the 11-year trend period, urban hospitals closed in 40 states

          California had the greatest number of urban closures (50), followed by Texas (40), Florida
          (21), Michigan (17) and Massachusetts, Ohio and Pennsylvania (12). These seven states
          account for 55.4 percent of all urban hospital closures from 1990 through 2000. The following
          charts illustrate the frequency of closure for each state.




                      Urban Closures By State




                                                                         Rate of Urban Closures
                                                                                > 20         (3)
                                                                                6 - 20      (16)
                                                                                1- 5        (21)
                                                                                No Closures (11)




Trends in Urban Hospital Closure: 1990-2000        14                                       OEI-04-02-00611
                                                                                APPENDIX A Cont.



                                   Number of Urban Hospital Closures By State
                                California                                 50
                                 Texas                                     40
                                Florida                                    21
                               Michigan                                    17
                             Massachusetts                                 12
                                 Ohio                                      12
                             Pennsylvania                                  12
                               Missouri                                    9
                               New York                                    9
                                Georgia                                    8
                                Virginia                                   8
                                 Illinois                                  7
                                Louisiana                                  7
                               New Jersey                                  7
                               Oklahoma                                    7
                               Tennessee                                   7
                                Arizona                                    6
                               Minnesota                                   6
                               Washington                                  6
                               Maryland                                    5
                               Wisconsin                                   5
                               Alabama                                     4
                              Connecticut                                  4
                                Oregon                                     3
                             South Carolina                                3
                               Arkansas                                    2
                               Colorado                                    2
                                 Indiana                                   2
                            North Carolina                                 2
                             North Dakota                                  2
                             West Virginia                                 2
                          District of Columbia                             1
                               Delaware                                    1
                              Kentucky                                     1
                                Maine                                      1
                              Mississippi                                  1
                              New Mexico                                   1
                                Nevada                                     1
                              Rhode Island                                 1
                                 Utah                                      1




Trends in Urban Hospital Closure: 1990-2000           15                                 OEI-04-02-00611
                                                                                          APPENDIX B


                         MEDICARE AND MEDICAID UTILIZATION


          Medicare utilization: Urban hospitals that closed had an average Medicare utilization of 46.4
          percent compared to an average of 45.9 percent for urban hospitals nationally. Medicare
          utilization was slightly higher among urban hospitals that closed in 7 of the 11 years, as
          shown in the following figure and table.




                           Annual Medicare Utilization Rates for Urban Hospitals

          Year              1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000

 National Avg. % 44.8                  45.8    46.7   47.1    47.9   48.8   48.4   48.0   46.4   40.9    39.9

  Closed Avg. %              50.7      42.9    49.4   51.4    49.8   54.6   46.7   40.5   38.8   44.3    46.5




Trends in Urban Hospital Closure: 1990-2000
                 16                                   OEI-04-02-00611
                                                                                     APPENDIX B Cont.


          Medicaid utilization: Urban hospitals that closed had an average Medicaid utilization of 14.6
          percent compared to an average of 13.5 percent for urban hospitals nationally. Although these
          averages are comparable, the yearly statistics show some variation, as reflected in the following
          figure and table.




                            Annual Medicaid Utilization Rates for Urban Hospitals

          Year              1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000

 National Avg. % 12.3                  11.7    12.8   13.6    14.0   13.9   14.0   14.0   14.4   14.0    13.7

  Closed Avg. %              11.8      17.4    13.9   14.8    16.7   10.9   11.9   17.1   22.4   16.0    10.4




Trends in Urban Hospital Closure: 1990-2000
                 17                                   OEI-04-02-00611
                             ACKNOWLEDGMENTS

This report was prepared under the direction of Bill Moran, Acting Regional Inspector General for
Evaluation and Inspections in the Atlanta Regional Office and Graham Rawsthorn, Assistant Regional
Inspector General. Other principal Office of Evaluation and Inspections staff who contributed include:

Kevin Lawrence, Lead Analyst                   Tricia Davis, Director, Medicare and Medicaid

Joe Townsel, Team Leader                       Linda Moscoe, Program Analyst 

Gerius Patterson, Program Analyst





Trends in Urban Hospital Closure: 1990-2000       18                                       OEI-04-02-00611
